Report No. D-2009-008            October 31, 2008




 Internal Controls Over the Department of the
Navy Military Equipment Baseline Valuation Effort
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AV                            Acquisition Value
NBV                           Net Book Value
P&EPO                         Property and Equipment Policy Office
SFFAS                         Statement of Federal Financial Accounting Standards
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704


                                                                                 October 31, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               NAVAL INSPECTOR GENERAL


SUBJECT: Internal Controls Over the Department of the Navy Military Equipment Baseline
         Valuation Effort (Report No. D-2009-008)

We are providing this report for your information and use. We performed this audit in response to
a request from the Property and Equipment Policy Office in the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics. We considered comments from the Under
Secretary of Defense for Acquisition, Technology, and Logistics and the Department of Navy
when preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Edward A. Blair
(216) 706-0074 extension 226 or Mr. Gregory M. Mennetti at (216) 706-0074 extension 267. The
team members are listed inside the back cover.




                                            f~ a.;JJ~
                                            Patricia A. Marsh, CPA
                                          Assistant Inspector General
                                          Defense Business Operations
                            Report No. D-2009-008 (Project No. D2007-D000FN-0214.000)
                                                   October 31, 2008

                       Results in Brief: Internal Controls Over the
                       Department of the Navy Military Equipment
                       Baseline Valuation Effort

What We Did                                                                    What We Recommend
We assessed the effectiveness of the Department                                We recommend that the Under Secretary of the
of the Navy’s (Navy) internal controls over the                                Navy:
valuation, rights and obligations, and                                            • implement and follow procedures for
completeness of military equipment programs to                                       classifying assets as military equipment,
determine whether the Navy’s military                                                establishing each asset’s useful life,
equipment baseline was adequate. This report is                                      determining each asset’s
one in a series.                                                                     placed-in-service date, and obtaining and
                                                                                     maintaining supporting documentation
                                                                                     to comply with Federal and DoD
                                                                                     guidance;
                                                                                  • maintain documentation to support
                                                                                     improvements and estimated useful life;
                                                                                     and
                                                                                  • verify the reliability and accuracy of
                                                                                     source records and the completeness of
                                                                                     the military equipment program
                                                                                     universe.

Aircraft assigned to Carrier Air Wing (CVW) 5 fly over the
                                                                               Client Comments and Our
          aircraft carrier USS Kitty Hawk (CV 63).
Photo Courtesy of Mass Communication Specialist 3rd Class Kyle D. Gahlau
                                                                               Response
                                                                               The Under Secretary of the Navy agreed with
What We Found                                                                  the recommendations, and his comments meet
                                                                               the intent of the recommendations. Please see
The Navy and the Property and Equipment
                                                                               the recommendations table on the back of this
Policy Office did not have adequate internal
                                                                               page.
controls in place over the Navy military
equipment baseline. As a result, management:
    • did not properly classify assets, use the
       asset’s correct useful life, and valuate
       accurate program acquisition values
       (Valuation);
    • improperly classified assets and used the
       asset’s incorrect placed-in-service date
       (Rights and Obligations); and
    • improperly included assets as military
       equipment and granted waivers                                           Aircraft assigned to Carrier Air Wing (CVW) 14 are stacked
       (Completeness).                                                                 on the bow of USS Ronald Reagan (CVN 76).
                                                                               Photo Courtesy of Mass Communication Specialist 3rd Class Gary Prill




                                                                           i
             Report No. D-2009-008 (Project No. D2007-D000FN-0214.000)
                                    October 31, 2008

Recommendations Table
Client                         Recommendations            No Additional Comments
                               Requiring Comment          Required
Under Secretary of the Navy    None                       1., 2., 3., 4., 5., 6.




                                          ii
Table of Contents

Results in Brief                                                                i

Introduction                                                                    1

       Objectives                                                               1
       Background                                                               1
       Management Assertions                                                    3

Finding. Valuation of the Department of the Navy Military Equipment Baseline    5

Appendices

       A. Scope and Methodology                                                13
              Review of Internal Controls                                      13
              Prior Coverage                                                   14
       B. Valuation and Rights and Obligations Sample and Results              15
       C. Statistical Sampling Methodology                                     23

Client Comments

       Department of the Navy                                                  25
       Under Secretary of Defense for Acquisition,
             Technology, and Logistics                                         29
Introduction
Objectives
Our objective was to determine whether the internal controls over the Department of the
Navy’s military equipment baseline were adequate. Specifically, we assessed the
effectiveness of the Department of the Navy’s internal controls over the valuation, rights
and obligations, and completeness of military equipment programs. See Appendix A for
a discussion of the scope and methodology, a review of internal controls, and for prior
coverage related to the objectives.

Background
The Property and Equipment Policy Office (P&EPO) in the Office of the Under Secretary
of Defense for Acquisition, Technology, and Logistics requested that the DoD Office of
Inspector General perform procedures to review the military equipment baseline as of
September 30, 2006. Officials in the P&EPO and the Office of Inspector General
discussed and agreed upon objectives for the audit. The agreed-upon objectives included
evaluating the reliability of the internal controls over the military equipment programs for
the financial statement assertions: valuation, rights and obligations, and completeness.

The Under Secretary of Defense for Acquisition, Technology, and Logistics and the
Under Secretary of Defense (Comptroller)/Chief Financial Officer established the
P&EPO in December 2000 to ensure a consistent military equipment valuation
methodology. The P&EPO led the Department-wide effort to achieve compliance with
the Statement of Federal Financial Accounting Standards (SFFAS) No. 23, “Eliminating
the Category National Defense Property, Plant, and Equipment,” May 2003, by
developing the military equipment program universe and performing the initial military
equipment valuation. The P&EPO developed the universe to identify all military
equipment programs. The P&EPO used budget reports and asset data obtained from DoD
accountability and logistics systems to develop the military equipment program universe.
The initial military equipment valuation developed a value for the military equipment
programs for inclusion in the DoD financial statements. The process was a manual effort
that began in FY 2002 and continued through FY 2006 with the implementation of
Capital Asset Management System–Military Equipment. The Capital Asset Management
System–Military Equipment captures asset status and expenditures. In addition, it values,
capitalizes, and depreciates delivered assets, and it reports financial and management
data.

Military equipment valuation is a DoD-wide effort to implement Federal accounting
standards requiring military equipment to be capitalized and recorded on the DoD
financial statements. Previously, DoD classified military equipment as National Defense
Property, Plant, and Equipment, which was expensed in the year it was acquired. In May
2003, the Federal Accounting Standards Advisory Board issued SFFAS No. 23, which
eliminated the category of National Defense Property, Plant, and Equipment and
reclassified military equipment to General Property, Plant, and Equipment. SFFAS


                                             1
No. 23 requires that the initial capitalization amount for assets previously considered
National Defense Property, Plant, and Equipment be based on historical cost in
accordance with the asset recognition provisions of SFFAS No. 6, “Accounting for
Property, Plant, and Equipment,” as amended, and should be the initial historical cost for
the items, including any major improvements or modifications.

SFFAS No. 6, defines Property, Plant, and Equipment as tangible assets that have an
estimated useful life of 2 or more years, are not intended for sale in the ordinary course of
business, and are intended to be used or available for use by the entity. SFFAS No. 6
states that depreciation expense is calculated through the systematic and rational
allocation of the cost of General Property, Plant, and Equipment, less its estimated
salvage or residual value, over the estimated useful life of the General Property, Plant,
and Equipment. The Standard requires costs that extend the useful life of existing
General Property, Plant, and Equipment or increase or improve its capacity to be
capitalized and depreciated and/or amortized over the remaining useful life of the
associated General Property, Plant, and Equipment.

DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,” volume 4,
chapter 6, Property, Plant, and Equipment, July 2006, defines General Property, Plant,
and Equipment as tangible assets that meet all of the following criteria:

   •   have an estimated useful life of 2 years or more;
   •   are not intended for sale in the ordinary course of operations;
   •   are acquired or constructed with the intention of being used or available for use by
       the entity; and
   •   have an initial acquisition cost, book value, or; when applicable; an estimated fair
       market value that equals or exceeds the DoD capitalization threshold, which is
       $100,000.

This includes assets that had previously been classified as National Defense Property,
Plant, and Equipment; bulk purchases; and assets used in providing goods or services. It
also includes assets that support the mission of the entity. Additionally, the costs to
improve General Property, Plant, and Equipment should be capitalized when the
improvement increases the asset’s capability, size, efficiency, and useful life, or modifies
functionality and would not otherwise be considered maintenance or repairs.

All General Property, Plant, and Equipment assets acquired by DoD must be recognized
for accountability and financial reporting purposes. Recognition requires the proper
accounting treatment (expense or capitalization and depreciation or amortization) and the
reporting of capitalized amounts and accumulated depreciation or amortization on the
appropriate DoD Component’s financial statements. The DoD Component that procures
a General Property, Plant, and Equipment asset or the DoD Component in possession of a




                                             2
General Property, Plant, and Equipment asset will be the DoD Component that accounts
for and reports the asset. 1

Management Assertions
Management assertions are representations by management about information in the
financial statements. The primary management assertions for the Military Equipment
line item are listed in Table 1.

                                    Table 1. Management Assertions
              Assertion                                    Management Representation
Valuation or Allocation               All military equipment is properly valued.
Rights and Obligations                The Navy owns all military equipment reported in the financial
                                        statements.
Completeness                          All military equipment owned by the Navy is reported in the
                                        financial statements.
Existence or Occurrence               All military equipment assets reported in the financial statements
                                        existed at the time.
Presentation and Disclosure           All military equipment assets are correctly reported in the financial
                                        statements.


Our audit focused on the assertions for valuation, rights and obligations, and
completeness applicable to the Navy military equipment baseline.




1
    The DoD Regulation 7000.14R also refers to this principle as the preponderance of use.


                                                      3
4
Valuation of the Department of the Navy
Military Equipment Baseline
The internal controls over the Navy military equipment baseline were inadequate.
Specifically, the Navy and Property and Equipment Policy Office (P&EPO) did not
establish adequate internal controls over the financial statement assertions of valuation
(classification, estimated useful life, and acquisition values); rights and obligations
(classification and placed-in-service dates); and completeness (number of assets and
waivers). As a result, we identified a $16.7 billion Net Book Value (NBV) misstatement
and a $1.8 billion Acquisition Value (AV) misstatement 2 in the military equipment
baseline. See Appendix B, Figure K for details. Additionally, the lack of support for the
classification of modifications, estimated useful lives, and military equipment baseline
waivers and incorrectly providing waivers could materially increase the misstatement of
the military equipment valuation baseline. To improve controls, the Navy and the
P&EPO should follow established guidance, establish and maintain support for military
equipment data, and verify the reliability of source records and completeness of the
military equipment program universe.

Military Equipment Baseline
To test the financial statement assertions of valuation and rights and obligations, we
judgmentally selected 35 programs from the Navy military equipment baseline universe.
For those 35 military equipment programs, we reviewed assets valued at $95.6 billion
AV with a corresponding $54.1 billion established NBV. See Appendix B, Figure A for
details. To test the financial statement assertion of completeness, we examined
documentation for all ships, aircrafts, and 13 other asset programs from the Navy military
equipment program universe. 3

Valuation Assertion
The Navy and the P&EPO did not establish adequate internal controls over valuation.
Specifically management did not:
   • properly classify assets,
   • use the assets correct useful life, and
   • calculate accurate program acquisition values.

The Navy and the P&EPO did not establish adequate internal controls over valuation
because management did not follow established guidance, provide documentation to fully
support the assets classification, and verify the reliability of source records.


2
  $16.7 billion NBV and $1.8 billion AV reflect the net misstatement value on the financial statements.
The total value of misstatements was $18.6 billion NBV and $1.8 billion AV.
3
  The Navy military equipment program universe includes all programs regardless of value as of
September 30, 2006. The Navy military equipment baseline universe includes only programs with a value
greater than zero as of September 30, 2006.


                                                   5
Classification
The Navy and the P&EPO did not properly classify assets and improvements as military
equipment. The Navy and the P&EPO improperly classified five programs, valued at
approximately $2.9 billion AV, as military equipment that were not available for military
missions, did not meet the capitalization threshold, or were not improvements. See
Appendix B, Figure B for details. The Navy and the P&EPO did not properly classify
these assets because they did not follow the DoD Regulation 7000.14-R, volume 4,
chapter 6, “Property, Plant, and Equipment,” July 2006. As a result, we identified a
misstatement of $1.3 billion NBV in the military equipment baseline. The Navy and the
P&EPO should follow DoD guidance when classifying assets as military equipment.

In addition, we were unable to determine whether management properly classified
improvements (modifications) for 10 programs, valued at $10.6 billion AV
($5.8 billion NBV). See Appendix B, Figure C for details. We were unable to determine
whether management properly classified these assets because available documentation
did not fully support classifying the asset as an improvement, as defined by SFFAS
No. 6, and DoD Regulation 7000.14-R, volume 4, chapter 6. For example, the purpose of
the Nuclear Refueling Complex Overhaul for the USS Dwight D. Eisenhower (CVN-69)
was to refuel the reactors, and repair and upgrade the main propulsion equipment.
Generally, the cost of fueling a ship and its repair is an expense, but the upgrade (if the
asset is not failing) is a capital improvement. We were unable to determine from the
supporting documentation provided whether the Nuclear Refueling Complex Overhaul
was an improvement because the Navy did not specifically support the modifications as
upgrades. As a result, we identified a possible misstatement in the military equipment
baseline. The Navy and the P&EPO should follow existing guidance to assist in
classifying assets as military equipment and establish documentation to support
improvements that are classified as military equipment.

Estimated Useful Life
The Navy and the P&EPO did not use the correct estimated useful life for military
equipment assets. The Navy and the P&EPO used values different from those provided
by the program offices for nine programs, valued at approximately $16.5 billion AV. See
Appendix B, Figure D for details. In addition, we could not determine whether
management established the appropriate estimated useful life for six programs, valued at
approximately $5.5 billion AV ($2.3 billion NBV). See Appendix B, Figure E for
details. The Navy and the P&EPO did not use and establish correct useful lives because
management did not follow the DoD Regulation 7000.14-R, volume 4, chapter 6, and
volume 1, chapter 3, “Accounting Systems Conformance, Evaluation, and Reporting,”
May 1993, that requires financial transactions to be adequately supported with pertinent
documents and source records. As a result, we identified a misstatement of
$947.6 million NBV and a potential misstatement in the military equipment baseline.
The Navy and the P&EPO should follow Federal and DoD guidance when determining
the assets’ estimated useful life and establish documentation supporting the estimated
useful life.




                                            6
Acquisition Values
The Navy and the P&EPO did not calculate accurate program acquisition values. For
11 of the programs, valued at approximately $57.2 billion AV, the program acquisition
totals were inaccurate. See Appendix B, Figure F for details. The Navy and the P&EPO
did not calculate accurate program acquisition values because the Navy did not verify the
reliability of source records. We found that disbursement totals were greater than
expenditure totals used to value the programs. For example, the USS Ronald Reagan
(CVN 76) was valued at $4.5 billion AV using expenditure data and $4.6 billion AV
using disbursement data. As a result, we identified a misstatement of $1.8 billion AV in
the military equipment baseline. The Navy in conjunction with the Defense Finance and
Accounting Service should verify the reliability and accuracy of the source records.

Rights and Obligations Assertion
The Navy and the P&EPO did not establish adequate internal controls over rights and
obligations. Specifically, management did not properly classify assets and use the assets’
correct placed-in-service date. The Navy and the P&EPO did not establish adequate
internal controls over rights and obligations because management did not follow
established guidance.

Classification
The Navy and the P&EPO improperly classified other DoD Components’ assets as Navy
military equipment. The Navy incorrectly recorded Marine Corps assets as Navy military
equipment for aircraft valued at approximately $26.8 billion AV. See Appendix B,
Figure G for details. The Navy and the P&EPO did not properly classify Marine Corps
assets because they did not follow DoD Regulation 7000.14-R, volume 4, chapter 6,
“Preponderance of Use Guidance.” These assets are owned and used by the Marine
Corps and should be included in the Marine Corps financial statements. As a result, we
identified a misstatement of $12.8 billion NBV in the Navy military equipment baseline.
The Navy and the P&EPO should follow DoD guidance when classifying military
equipment assets.

Placed-in-Service Date
The Navy and the P&EPO did not use the correct placed-in-service date for military
equipment assets. The Navy used incorrect placed-in-service dates for four programs,
valued at $16.9 billion AV. See Appendix B, Figure H for details. For example, the
Nuclear Refueling Complex Overhaul for the USS Carl Vinson (CVN 70) was
placed-in-service prior to FY 2006. However, scheduled completion of the Nuclear
Refueling Complex Overhaul for the USS Carl Vinson (CVN 70) is March 2009. In
March 2009, the Navy should place this portion of the asset in service. The Navy and the
P&EPO did not use the correct place-in-service date because management did not follow
DoD Regulation 7000.14-R, volume 4, chapter 6. As a result, we identified a
misstatement of $722.6 million NBV in the military equipment baseline. The Navy and
the P&EPO should follow DoD guidance to record accurate placed-in-service dates.




                                            7
Completeness Assertion
The Navy and the P&EPO did not have effective internal controls over completeness.
Specifically, management did not record the correct number of assets as military
equipment and inappropriately granted waivers allowing exclusion of military equipment
programs from the baseline. The Navy and the P&EPO also did not verify the
completeness of the military equipment program universe, follow established guidance,
and provide sufficient supporting documentation.

Number of Assets
The Navy and the P&EPO did not record the correct number of ships and aircraft as
military equipment. The Navy and the P&EPO incorrectly classified 10 ships, valued at
approximately $1.2 billion AV, as military equipment and excluded 14 ships that were
military equipment. See Appendix B, Figure I for details. In addition, management
incorrectly classified 167 aircraft, valued at approximately $4.1 billion AV, as military
equipment and excluded 28 aircraft that were military equipment. See Appendix B,
Figure J for details. The Naval Vessel Register and the Aircraft Inventory and Readiness
Reporting System identified specific assets as part of the active battle inventory, which
differed from those provided by the Navy and the P&EPO. The Navy and the P&EPO
did not record the correct number of ships and aircraft because management did not
verify the completeness of the program universe. As a result, we identified a misstatement
of $2.8 billion NBV and an omission of assets in the military equipment baseline. The Navy
and the P&EPO should verify the completeness of the ship and aircraft universe.

Waivers
The Navy and the P&EPO did not effectively control the waiver process. The P&EPO
improperly granted waivers to three programs that should have been included in the
military equipment baseline. For example, the LCC-19 Blue Ridge Class Program was
fully depreciated and granted a waiver based on a useful life of 25 years. However, we
determined that the useful life is 40 years and as of September 30, 2006, should have had
5 years of remaining depreciable value and useful life. The Navy and the P&EPO did not
properly grant waivers because they did not consistently follow DoD Regulation
7000.14-R, volume 4, chapter 6 on useful life and preponderance of use. As a result,
management omitted transactions, causing an understatement of the Military Equipment
line item. The P&EPO should consistently follow DoD Regulation 7000.14-R guidance
when assigning useful life and preponderance use to military equipment.

In addition, we could not determine whether the P&EPO properly granted waivers to
45 programs and whether they assigned 66 programs the correct waiver category. We
could not determine whether waivers were properly granted or given the proper category
because the Navy and the P&EPO did not provide sufficient supporting documentation.
As a result, this could cause an understatement of the financial statements. The Navy and
the P&EPO should include documentation in each waiver to support the reason for and
category of the waiver.




                                            8
Client Comments on the Finding and Our Response
Although not required to comment, the Director, Acquisition Resources and Analysis,
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
provided the following comments on the finding. For the full text of Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics comments, see Client
Comments.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments. The Director stated that the final report should clarify
whether the identified assets misstated for the valuation, rights and obligations, and
completeness assertions could be reported as General Property, Plant, and Equipment
instead of Military Equipment. In addition, the final report should indicate whether the
DoD Office of Inspector General supports capitalization using the Group and Composite
methodology to capitalize all items in a group as long as a single item from the group
exceeds the capitalization threshold of $100,000.

The Director stated that the final report should identify that the responsible program
managers provided and attested to the data and information included in the valuations. In
addition, the Director stated that the report should recognize that valuations were based
on the expenditure data from Navy accounting systems.

The Director stated that the draft report indicated that a number of assets were
misclassified as Military Equipment and that the audit results relied on information
included in the Naval Vessel Register and the Aircraft Inventory and Readiness
Reporting System to make these determinations. Because the accounting standards do
not define Military Equipment, the criteria used to categorize assets as Military
Equipment should be based on the definition developed by DoD, not by the system used
to track the assets.

Our Response. The objective of this audit was to determine whether the internal
controls over the valuation of the Department of the Navy’s military equipment baseline
were adequate. Specifically, we assessed the effectiveness of the Department of the
Navy’s internal controls over the valuation, rights and obligations, and completeness of
military equipment. The scope of our testing was limited to reviewing programs to
determine whether adequate controls were in place to support the initial baseline
valuation effort. We did not design our testing to identify the proper accounting
treatment for programs not accurately classified as military equipment. We performed
and gathered testing support for the $16.9 billion NBV misstatement identified for
Valuation Testing – Classification, Rights and Obligations Testing – Classification, and
Completeness Testing – Number of Assets. We determined that the Navy would not
reclassify $15.2 billion NBV of the misstatement as General Property, Plant, and
Equipment. The remaining $1.7 billion NBV of the misstatement would require
additional testing to determine the proper accounting treatment. In addition, a summary
report on the military equipment baseline valuation will address the DoD Office of
Inspector General stance on capitalizing all items in a group as long as a single item
exceeds the capitalization threshold of $100,000.


                                            9
The Military Departments maintain the overall responsibility for the accuracy of their
financial statement, and we recognized that by addressing all recommendations to the
Department of the Navy. However, the P&EPO had primary responsibility for
developing the universe and initial valuation process. Therefore, the P&EPO needs to
support and provide guidance to the Military Departments to establish an accurate
reliable baseline.

The information available in the Naval Vessel Register and the Aircraft Inventory
Readiness Reporting System represent the official inventory of the Navy’s ships and
aircraft from the time of authorization through their life cycles and disposals. The DoD
definition of military equipment states that military equipment are weapon systems that
can be used directly by the Armed Forces to carry out battlefield missions. Both of these
systems report the status of the assets (that is, the availability for military missions). The
value of Military Equipment should exclude Navy assets not available for military
missions.

Recommendations, Client Comments, and Our
Response
We recommend that the Under Secretary of the Navy:

       1. Implement and follow procedures for classifying assets as military
equipment, establishing assets useful life, and determining assets’ placed-in-service
date to comply with DoD Financial Management Regulation volume 4, chapter 6,
“Property, Plant, and Equipment,” July 2006.

Navy Comments. The Deputy Assistant Secretary, Office of the Assistant
Secretary (Financial Management and Comptroller) concurred. The Deputy Assistant
Secretary, Office of the Assistant Secretary (Financial Management and Comptroller)
will publish clear guidance for Navy field activities. This guidance will include
applicable existing DoD regulations and address the Navy’s approach and expectations
for classification and determination of placed-in-service dates and estimated useful life
for military equipment. The Navy will publish the guidance no later than September 30,
2009.

Our Response. The Deputy Assistant Secretary, Office of the Assistant Secretary
(Financial Management and Comptroller) comments are responsive to the intent of the
recommendation.

      2. Implement and follow procedures for classifying assets as military
equipment and establishing assets’ useful life to comply with the Statement for
Federal Accounting Standards No. 6, “Accounting for Property, Plant, and
Equipment,” June 1996 as amended.

Navy Comments. The Deputy Assistant Secretary, Office of the Assistant
Secretary (Financial Management and Comptroller) concurred. The Deputy Assistant
Secretary, Office of the Assistant Secretary (Financial Management and Comptroller)


                                              10
will publish clear guidance and develop and test internal controls for Navy field
activities. Publishing guidance and developing internal controls will ensure that
classification and determination of placed-in-service dates and useful life for military
equipment will reflect the requirements of SFFAS No. 6. The Navy will publish
guidance and develop controls no later than September 30, 2009.

Our Response. The Deputy Assistant Secretary, Office of the Assistant Secretary
(Financial Management and Comptroller) comments are responsive to the intent of the
recommendation.

      3. Implement and follow procedures for obtaining and maintaining
supporting documentation to comply with DoD Financial Management Regulation
volume 1, chapter 3, “Accounting Systems Conformance, Evaluation, and
Reporting,” May 1993.

Navy Comments. The Deputy Assistant Secretary, Office of the Assistant
Secretary (Financial Management and Comptroller) concurred. The Deputy Assistant
Secretary, Office of the Assistant Secretary (Financial Management and Comptroller)
will publish clear guidance for Navy field activities. This guidance will address the
Navy’s approach and expectations for maintaining supporting documentation for military
equipment. The Navy will publish the guidance no later than September 30, 2009.

Our Response. The Deputy Assistant Secretary, Office of the Assistant Secretary
(Financial Management and Comptroller) comments are responsive to the intent of the
recommendation.

      4. Establish documentation to support improvements, estimated useful life,
and waivers.

Navy Comments. The Deputy Assistant Secretary, Office of the Assistant
Secretary (Financial Management and Comptroller) concurred. The Deputy Assistant
Secretary, Office of the Assistant Secretary (Financial Management and Comptroller)
will publish clear guidance for Navy field activities. This guidance will establish
appropriate documentation requirements for classifying assets as military equipment and
granting of waivers. The Navy will publish the guidance no later than September 30,
2009.

Our Response. The Deputy Assistant Secretary, Office of the Assistant Secretary
(Financial Management and Comptroller) comments are responsive to the intent of the
recommendation.

        5. Verify, in conjunction with the Defense Finance and Accounting Service,
the reliability and accuracy of source records.

Navy Comments. The Deputy Assistant Secretary, Office of the Assistant
Secretary (Financial Management and Comptroller) concurred. The Deputy Assistant
Secretary, Office of the Assistant Secretary (Financial Management and Comptroller)


                                             11
stated that the Navy currently has a Financial Improvement Plan to address deficiencies
in reconciling the Fund Balance with Treasury that will enable the Navy to reconcile
military equipment expenditures with disbursements.

Our Response. The Deputy Assistant Secretary, Office of the Assistant Secretary
(Financial Management and Comptroller) comments are responsive to the intent of the
recommendation.

      6. Assist the Property and Equipment Policy Office in verifying the
completeness of the military equipment program universe.

Navy Comments. The Deputy Assistant Secretary, Office of the Assistant
Secretary (Financial Management and Comptroller) concurred. The Deputy Assistant
Secretary, Office of the Assistant Secretary (Financial Management and Comptroller)
will continue to work in cooperation with the Office of the Secretary of Defense P&EPO
to verify the completeness of the military equipment universe.

Our Response. The Deputy Assistant Secretary, Office of the Assistant Secretary
(Financial Management and Comptroller) comments are responsive to the intent of the
recommendation.




                                           12
Appendix A. Scope and Methodology
We conducted this financial-related audit from July 2007 through April 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The P&EPO requested that the DoD Office of the Inspector General perform procedures
to review the military equipment baseline as of September 30, 2006. Officials from both
offices discussed and agreed upon objectives for the engagement. The agreed-upon
objectives included evaluating the reliability of the internal controls over three of the
financial statement assertions: valuation, rights and obligations, and completeness of the
military equipment program universe. Specifically, we reviewed the reasonableness and
reliability of the estimated historical acquisition costs that were developed using
numerous sources including budget documents, financial reports, equipment inventory
reports, and contract documentation. We tested controls in place as of
September 30, 2006.

To test the financial statement assertions of valuation and rights and obligations, we
statistically selected 45 military programs from the Navy military equipment baseline
universe. See Appendix C for details. Because of the high error rate, we determined that
completing the statistical sample would not provide additional benefit to the customer
and we judgmental selected 35 programs from the statistical sample to test the valuation
and rights and obligations assertions. To test the financial statement assertion of
completeness, we examined all ship and aircrafts and selected 13 of all other assets from
the Navy military equipment program universe. Our review did not address the existence
or presentation and disclosure financial statement assertions.

Review of Internal Controls
We determined that material internal control weaknesses in the Navy military equipment
baseline existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control
(MIC) Program Procedures,” January 4, 2006. DoD Instruction 5010.40 states that
internal controls are the organization, policies, and procedures that help program and
financial managers to achieve results and safeguard the integrity of their programs.
Implementing the recommendations will improve the Navy military equipment valuation.
This report is one in a series, and the final report will contain recommendations to the
P&EPO that should also correct the weaknesses identified in this report. We will provide
a copy of this report to the senior officials responsible for internal controls for the Under
Secretary of the Navy and P&EPO.




                                             13
Use of Computer-Processed Data
We relied on computer-processed data provided from P&EPO and its support contractor.
We obtained the data from numerous DoD financial, acquisition, and logistics systems.
We took information from the Capital Asset Management System—Military Equipment,
Naval Air Command Enterprise Resource Planning System—Sigma, and the Standard
Accounting and Reporting System. In addition, we extracted data from the Electronic
Document Access, Naval Vessel Register, Aircraft Inventory Readiness and Reporting
System, and the Cash History On-Line Operator Search Engine. Specifically, we used
the computer-processed data to review program valuation calculations and examine
supporting documentation adequacy. We did not determine the reliability of the
computer-processed data. Not evaluating the controls did not affect the results of the
audit objectives.

Use of Technical Assistance
The DoD Office of Inspector General Quantitative Methods Directorate assisted with the
audit. See Appendix C for detailed information about the work the Quantitative Methods
Directorate performed.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) and Air
Force Audit Agency have issued five reports related to military equipment. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports. Air Force Audit
Agency reports can be accessed at http://www.afaa.hq.af.mil.

DoD IG
DoD IG Report No. D-2008-126, “Report on Internal Controls Over the Army Military
Equipment Baseline Valuation Effort,” August 29, 2008

DoD IG Report No. D-2008-074, “Memorandum Report on Internal Controls Over the
Air Force Military Equipment Baseline Valuation Effort,” April 1, 2008

DoD IG Report No. D-2005-114, “Report on Development of DoD Baseline for Military
Equipment,” September 30, 2005

DoD IG Report No. D-2005-112, “Report on the Review of the Development of the DoD
Baseline for Military Equipment,” September 30, 2005

Air Force
Air Force Audit Agency Report No. F2007-0009-FB3000, “Air Force Military
Equipment Baseline Valuation,” May 29, 2007




                                          14
Appendix B. Valuation and Rights and
Obligations Sample and Results
Figure A. Sample
 Program Name                               Acquisition Value       Net Book Value
F/A - 18 Hornet E/F Models                       $21,597,063,568        $17,845,367,934
F/A - 18 Hornet C/D Models                        20,707,136,276          4,528,136,561
Trident II                                        12,709,752,000          6,985,518,240
T-45 Goshawk                                        4,537,369,710         3,422,081,458
USS Ronald Reagan (CVN 76)                          4,530,402,881         4,077,782,559
USS Abraham Lincoln (CVN 72)                        2,926,834,084         1,547,040,872
USS Connecticut (SSN 22)                            2,390,034,053         1,804,290,211
P-3 Series - Modifications                          2,362,095,631         1,414,195,842
USS Jimmy Carter (SSN 23)                           2,144,663,725         2,044,372,000
USS Dwight D. Eisenhower (CVN 69) -
                                                   1,916,268,935          1,205,868,418
      Refueling Complex Overhaul
AN/SQQ-89 Surf ASW Combat System                   1,537,998,535            281,554,852
SSN Acoustics                                      1,443,773,519            683,820,014
CH-46E - Naval Aviation Depot -
                                                   1,326,011,752            452,225,484
      Modifications
USS Nebraska (SSBN 739)                            1,314,968,132            892,299,804
USS Carl Vinson (CVN 70) -
                                                   1,302,180,136          1,215,779,926
      Refueling Complex Overhaul
AEGIS Support Equipment                            1,136,558,388            653,975,939
USS Nevada (SSBN 733)                              1,057,857,896            541,522,489
USS Kitty Hawk (CVN 63) -
                                                     954,686,046                 31,840
      Service Life Extension Program
USS Bulkeley (DDG 84)                                914,316,546            770,618,340
USS Essex (LHD 2)                                    885,490,287            564,500,058
Strategic Platform Support Equipment CSS             879,943,954            253,293,392
USS Chancellorsville (CG 62)                         817,264,906            135,290,475
Aviation Training Systems -
                                                     805,335,718            240,906,457
      Simulators for Navy/Marine Corp
USS Paul Hamilton (DDG 60)                           793,376,567            532,890,586
USS Dwight D. Eisenhower (CVN 69)                    755,392,710            118,704,567
USS Fitzgerald (DDG 62)                              742,092,792            498,455,818
H-60 Helicopter Modifications                        644,283,141            121,226,438
Common Avionics                                      519,267,475            311,572,312
Other Navigation Equipment                           426,325,077            337,727,942
Aircraft Launch and Recovery Equipment               371,322,462            219,034,525
Salt Lake City (SSN 716)                             318,014,876            101,186,552
Aircraft Rearming Equipment                          299,058,799            116,103,994
Sonar Switches and Tranducers                        239,576,431            100,926,453
USS Underwood (FFG 36)                               230,557,138                    -
Automatic Carrier Landing System                      80,487,877             65,463,983
Total                                            $95,617,762,023        $54,083,766,335




                                           15
Figure B. Valuation Testing Results -
          Improper Classification
                                                                          Net Book Value
Program Name                                    Acquisition Value         Misstatement
                                                                        (Over)Understated
AEGIS Support Equipment                               $1,136,558,388           $ (653,975,939)
H-60 Helicopter Modifications                            644,283,141             (121,226,438)
Common Avionics                                          519,267,475             (311,572,312)
Salt Lake City (SSN 716)                                 318,014,876             (101,186,552)
Sonar Switches and Tranducers                            239,576,431             (100,926,453)

Total                                                 $2,857,700,311           $(1,288,887,694)




Figure C. Valuation Testing Results –
          Unable to Determine Proper Classification
                                                                           Net Book Value
Program Name                                    Acquisition Value      Potential Misstatement
                                                                         (Over)Understated
P-3 Series - Modifications                           $ 2,362,095,631           $(1,414,195,842)
USS Dwight D. Eisenhower (CVN 69) -
                                                       1,916,268,935            (1,205,868,418)
     Refueling Complex Overhaul
AN/SQQ-89 Surf ASW Combat System                       1,537,998,535              (281,554,852)
SSN Acoustics                                          1,443,773,519              (683,820,014)
USS Carl Vinson (CVN 70) -
                                                       1,302,180,136            (1,215,779,926)
     Refueling Complex Overhaul
Strategic Platform Support Equipment CSS                 879,943,954              (253,293,392)
Other Navigation Equipment                               426,325,077              (337,727,942)
Aircraft Launch and Recovery Equipment                   371,322,462              (219,034,525)
Aircraft Rearming Equipment                              299,058,799              (116,103,994)
Automatic Carrier Landing System                          80,487,877               (65,463,983)

Total                                                $10,619,454,925           $(5,792,842,888)




                                           16
Figure D. Valuation Testing Results -
          Incorrect Estimated Useful Life 4
                                                                                         Net Book Value
Program Name                                              Acquisition Value
                                                                                       (Over)Understated
USS Ronald Reagan (CVN 76)                                      $ 4,530,402,881                $135,492,120
USS Abraham Lincoln (CVN 72)                                      2,926,834,084                 413,937,964
USS Connecticut (SSN 22)                                          2,390,034,053                  (11,764,671)
USS Jimmy Carter (SSN23)                                          2,144,663,725                   (6,941,461)
USS Dwight D. Eisenhower (CVN 69) -
                                                                  1,916,268,935                  175,942,460
     Refueling Complex Overhaul
USS Carl Vinson (CVN 70) -
                                                                  1,302,180,136                           -
     Refueling Complex Overhaul
USS Dwight D. Eisenhower (CVN 69)                                  755,392,710                   191,006,444
Salt Lake City (SSN 716)                                           318,014,876                           -
USS Underwood (FFG 36)                                             230,557,138                    49,954,046

Total                                                          $16,514,348,538                  $947,626,902




Figure E. Valuation Testing Results -
          Unsupported Estimated Useful Life

Program Name                                              Acquisition Value              Net Book Value


P-3 Series - Modifications                                      $2,362,095,631                 $1,414,195,842
AN/SQQ-89 Surf ASW Combat System                                 1,537,998,535                    281,554,852
Strategic Platform Support Equipment CSS                           879,943,954                    253,293,392
Aircraft Launch and Recovery Equipment                             371,322,462                    219,034,525
Aircraft Rearming Equipment                                        299,058,799                    116,103,994
Automatic Carrier Landing System                                    80,487,877                     65,463,983

Total                                                           $5,530,907,258                 $2,349,646,588




4
    Programs with a dash represent misstatements that were calculated in other results to avoid duplication.

                                                       17
Figure F. Valuation Testing Results –
          Acquisition Values 5
                                                                                        Acquisition Value
Program Name                                              Acquisition Value              Misstatement
                                                                                       (Over)Understated
F/A - 18 Hornet E/F Models                                     $21,597,063,568                    $ 337,004,243
F/A - 18 Hornet C/D Models                                      20,707,136,276                        8,005,837
USS Ronald Reagan (CVN 76)                                       4,530,402,881                       92,089,274
P-3 Series - Modifications                                       2,362,095,631                        2,214,906
USS Jimmy Carter (SSN 23)                                        2,144,663,725                      417,867,361
USS Dwight D. Eisenhower (CVN 69) -                              1,916,268,935                      682,408,737
CH-46E - Naval Aviation Depot -                                  1,326,011,752                              -
USS Nebraska (SSBN 739)                                          1,314,968,132                            6,593
USS Bulkeley (DDG 84)                                              914,316,546                       96,098,591
Aircraft Rearming Equipment                                        299,058,799                      114,794,031
Automatic Carrier Landing System                                    80,487,877                       41,109,121

Total                                                          $57,192,474,122                   $1,791,598,694




Figure G. Rights and Obligations Testing Results -
          Classification
                                                                                        Net Book Value
Program Name                                              Acquisition Value              Misstatement
                                                                                       (Over)Understated
CH-46E - Naval Aviation Depot -
                                                                $ 1,326,011,752              $     (452,225,484)
    Modifications
Marine Aircraft - Not sampled for Valuation and
                                                                25,500,492,750                   (12,380,699,708)
    Rights and Obligations

Total                                                          $26,826,504,502               $(12,832,925,192)




5
    Programs with a dash represent misstatements that were calculated in other results to avoid duplication.

                                                       18
Figure H. Rights and Obligations Testing Results -
          Placed-in-Service
                                                               Net Book Value
Program Name                           Acquisition Value        Misstatement
                                                              (Over)Understated
Trident II                                  $12,709,752,000         $      89,452,800
USS Dwight D. Eisenhower (CVN 69) -
                                              1,916,268,935              403,803,354
     Refueling Complex Overhaul
USS Carl Vinson (CVN 70) -
                                              1,302,180,136          (1,215,779,926)
     Refueling Complex Overhaul
USS Kitty Hawk (CVN 63) -
                                                954,686,046                   (31,840)
     Service Life Extension Program

Total                                       $16,882,887,117         $ (722,555,612)




Figure I. Completeness Testing Results -
          Ships
                                                               Net Book Value
Program Name                           Acquisition Value        Misstatement
                                                              (Over)Understated
USNS Mercy (AH 19)                            $ 237,690,063             $ (37,351,295)
USNS Comfort (AH 20)                            213,015,563               (33,473,872)
Thomas G. Thompson (AGOR 23)                     34,384,082                (8,555,088)
Shrike (MHC 62)                                 132,992,460               (94,226,026)
Roger Revelle (AGOR 24)                          49,719,700               (24,418,788)
Raven (MHC 61)                                  141,668,701               (94,760,455)
Cormorant (MHC 57)                              109,982,955               (69,212,599)
Cardinal (MHC 60)                               123,146,872               (77,496,401)
Black Hawk (MHC 58)                             133,975,385               (79,020,512)
Atlantis (AGOR 25)                               55,455,283               (32,679,007)

Total                                        $1,232,031,064             $(551,194,043)




                                      19
Figure J. Completeness Testing Results –
          Aircraft
                                                                Net Book Value
                      Number of
Program Name                            Acquisition Value        Misstatement
                       Aircraft
                                                               (Over)Understated
P-3 Series                    69              $1,417,716,849        $ (441,818,096)
MV-22 Osprey                  13               1,389,665,979         (1,139,855,444)
AV-8B                         18                 401,388,822           (112,388,910)
MH-60R Seahawk                 3                 183,960,216           (178,840,822)
F/A-18 E/F                     2                 165,877,150            (88,921,359)
CH-53E/MH-53E                  6                 113,484,058            (41,521,598)
T-45 Goshawk                   4                 101,172,655            (73,289,442)
MH-60S Seahawk                 4                  94,357,859            (87,884,315)
F/A-18 C/D                     2                  64,697,800             (3,611,369)
E-2C                           1                  51,783,817             (8,927,224)
AV-8B Remanufacture            1                  50,018,807            (30,263,539)
C-2AR                          1                  31,568,327             (3,954,092)
AH-1W                          3                  21,644,160             (7,396,970)
T-34                          17                  10,772,985             (1,725,184)
UC-35                          1                   7,428,818             (7,280,242)
TH-57                          8                   6,589,344             (3,179,124)
T-6A Texan II                  1                   4,698,759             (4,248,790)
T-2C                           4                   3,785,220                    -
F-5 Adversary                  6                   3,224,220             (3,143,610)
H-53 Mods                      2                   3,174,299             (1,942,917)
C-12                           1                   2,394,458               (171,942)

Total                        167              $4,129,404,602        $(2,240,364,989)




                                   20
Figure K. Calculation of Net Misstatement

                                         Net Book Value           Acquisition Value
                                          Misstatement             Misstatement
                                        (Over)Understated        (Over)Understated
Valuation Testing
(See Appendix B - Figures B thru F.)
  Improper Classification                    $ (1,288,887,694)
  Incorrect Estimated Useful Life                 947,626,902
  Acquisition Values                                                    $1,791,598,694

Rights and Obligations Testing
(See Appendix B - Figures G and H.)
  Improper Classification                    (12,832,925,192)
  Incorrect Placed-in-Service Date              (722,555,612)

Completeness Testing
(See Appendix B - Figures I and J.)
  Improperly Included Ships                      (551,194,043)
  Improperly Included Aircraft                 (2,240,364,989)

Total                                       $(16,688,300,628)           $1,791,598,694




                                       21
22
Appendix C. Statistical Sampling
Methodology
Quantitative Plan
Objective: To determine whether acquisition valuations were correct and if control
procedures were correctly followed.

Population: The population consisted of an Excel file containing 448 programs valued at
$304,213,866,570 and contained 36,058 end item transactions. The programs were
categorized by average cost and group composite method. There were 370 programs
using an average cost method that amounted to $284,104,312,827 that contain 35,262 end
item transactions. There were 78 programs using a group composite method that
amounted to $20,109,553,743 that contained 796 end items.

Measures: The variable measure was the dollar difference between the stated item value
and the audited value. The attribute measure of correct or incorrect was used to
determine if the item audited met the required conditions.

Parameters: We used a 90 percent confidence level for the statistical estimate.

Sample Plan
We used a two-stage sample design. Stage 1 was a probability proportional to size (pps)
design by acquisition value. Stage 2 was a simple random sample of program end items.
Programs were sampled separately based on the costing method, average cost, and group
composite.

Stage 1 average cost. We selected 40 programs (28 unique programs) using pps with
replacement.

Stage 1 group composite. We selected 20 programs (17 unique programs) using pps with
replacement.

Stage 2 average cost. We selected 20 end items from each of the 40 average cost
programs without replacement. Total sample size was 458.

Stage 2 group composite. We selected 20 end items from each of the 20 group composite
programs without replacement. If there were fewer than 20 end items in a program, 100
percent of the items were selected. Total sample size was 267. We used the random
number generator in SAS version 9.1 to select the random samples.

Statistical Analysis and Interpretation
Quantitative Methods Directorate did not make any statistical projections. Because of the
high error rate, the statistical sample was not completed.



                                           23
24
Department of the Navy Comments




                  Click to add JPEG file




                                 25
Click to add JPEG file




               26
Click to add JPEG file




               27
Click to add JPEG file




               28
Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                    Click to add JPEG file




                                   29
Click to add JPEG file




               30
Click to add JPEG file




               31
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Business Operations prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Amy J. Frontz
Edward A. Blair
Gregory M. Mennetti
Michael B. Dell
Devon R. Houston
Ai T. Nguyen
Celita M. Pomales
Ann L. Thompson
James D. Hartman
Lusk F. Penn
Dr. Kandasamy Selvavel
